OFFICE OF THE ATTORNEY GENERAL
Amit Agarwal
Solicitor General
PL-01 The Capitol
Tallahassee, FL 32399-1050
Phone (850) 414-3681
Fax (850) 410-2672
Amit.Agarwal@myfloridalegal.com

ASHLEY MOODY
ATTORNEY GENERAL
STATE OF FLORIDA

November 23, 2020

VIA ELECTRONIC DELIVERY

Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Mark Anthony Poole v. State of Florida, Case No. 20-250***Capital Case***

Dear Mr. Harris:
On behalf of the Respondent in this matter, and pursuant to Rule 30.4, I respectfully
request a 7-day extension of time to file the Brief in Opposition, extending the November
30, 2020 deadline to December 7, 2020. The extension is necessary because the Office of
the Solicitor General has a number of pressing deadlines in various other matters with
limited staff assistance. Counsel for Petitioner does not object to this extension of time.

Sincerely,
/s/ Amit Agarwal
Amit Agarwal
Counsel of Record

cc:

Ze-wen Julius Chen
Counsel of Record

